APRIL 8, 2013
  AUDIT REPORT




                                                      OFFICE OF AUDITS




       NASA’S MANAGEMENT OF ENERGY SAVINGS
                   CONTRACTS




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-13-014 (ASSIGNMENT NO. A-12-020-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

COR          Contracting Officer’s Representative
FEMP         Federal Energy Management Program
GAO          Government Accountability Office
JPL          Jet Propulsion Laboratory
M&V          Measurement and Verification
NPR          NASA Procedural Requirements
OIG          Office of Inspector General


                                                    REPORT NO. IG-13-014
APRIL 8, 2013




                                                                                          OVERVIEW

         NASA’S MANAGEMENT OF ENERGY SAVINGS CONTRACTS
                                                                                            The Issue

  In response to Federal mandates to reduce energy consumption, several NASA Centers
  have entered into energy savings performance contracts (energy contracts) to fund
  conservation measures. An energy contract is a partnership between a Federal agency
  and a private company (energy company) that allows the agency to undertake
  conservation measures without having to fund the associated upfront capital costs. 1 The
  company guarantees the conservation measures will generate cost savings sufficient to
  pay for the capital improvements (including finance costs) over the term of the contract,
  and the agency pays the company out of proceeds generated by those cost savings. As
  such, energy contracts are designed to have no impact on an agency’s budget – positive
  or negative – although any cost savings generated from the conservation measures after
  the contract ends accrue to the agency. The guarantee of a specified level of cost savings
  and performance is at the heart of these energy contracts and, consequently, effective
  management and oversight of the contracts is crucial to ensure the mechanism works as
  designed.

  NASA’s Johnson Space Center (Johnson) awarded the Agency’s first energy contract to
  Honeywell International, Inc., (Honeywell) in 1999. The $42.7 million fixed-price
  contract was designed to save approximately $2 million a year in energy and operational
  costs for 22 years. 2 Subsequently, NASA awarded six additional contracts at five other
  Centers with total guaranteed savings of almost $93 million and performance periods of
  10 or more years depending on the Center. NASA has committed to awarding another
  $19 million of energy contracts by December 2013. 3 NASA is responsible for ensuring
  that energy companies deliver on the savings guarantees contained in these contracts and
  for adjusting the contracts if they fail to do so.

  In this audit, we evaluated whether NASA effectively managed, monitored, and
  controlled energy contracts to ensure that payments do not exceed the savings guaranteed
  in the contracts.



  1
      1986 Amendments to the National Energy Conservations Policy Act of 1978.
  2
      Under the contract, performance payments are scheduled as follows: 10 annual payments of $2.1 million,
      11 annual payments of $1.8 million, and a final payment of $1.3 million.
  3
      Presidential Memorandum, “Implementation of Energy Savings Projects and Performance-Based
      Contracting for Energy Savings,” December 2, 2011, requires the Federal Government to enter into a
      minimum of $2 billion of energy contracts for energy efficiency within 24 months.



REPORT NO. IG-13-014
                                                                                                            OVERVIEW



     Although NASA has awarded seven energy contracts, two of these contracts have ended
     (Goddard Space Flight Center and Glenn Research Center) and two others are early in
     their performance periods (Jet Propulsion Laboratory and Wallops Flight Facility).
     Accordingly, we focused our review on contracts at Johnson and Ames Research Center
     (Ames) in an effort to provide “lessons learned” for contracts underway or planned at
     other Centers. Details of the audit’s scope and methodology are in Appendix A.

     Results

     We found that Johnson mismanaged its $42.7 million energy contract. Specifically,
     Johnson officials did not require Honeywell to submit annual savings verification reports
     and accepted a flawed report for the first year, did not consider the effect of renovations
     to or demolition of facilities on the guaranteed savings rate, and added work to the
     contract without ensuring that energy savings would cover the additional costs. Based on
     our interviews and document review, it was apparent that Johnson contracting officials
     did not effectively administer the energy contract. Moreover, neither Johnson nor NASA
     had developed sufficient guidance or an effective training program regarding
     administration of energy contracts. As a result, Johnson may have overpaid Honeywell
     because it could not verify that the conservation measures installed under the contract
     resulted in the guaranteed $2 million in annual energy savings. 4

     To avoid similar problems at other Centers, the Agency should improve its guidance and
     training. For example, although Ames appears to be effectively managing its energy
     contracts, it has not yet faced the situation of needing to adjust the contracts to account
     for facility renovation or demolition. In addition, because the energy contracts at the Jet
     Propulsion Laboratory and Wallops Flight Facility are in their first year of performance,
     issuance of improved guidance and training could help managers there avoid future
     problems.

     Poor Verification Reporting Leads to Mismanagement of Energy Contracts at
     Johnson. Johnson did not require annual savings verification reports and the sole
     verification report submitted was flawed. After receiving the initial verification report in
     2001 following installation of the conservation measures, Johnson officials did not
     require Honeywell to submit annual reports verifying that the measures continued to
     generate the guaranteed savings. Nevertheless, Johnson officials accepted Honeywell’s
     claim that the approximately $2 million of guaranteed energy savings had been achieved
     each year. In addition, we found that Honeywell’s initial report contained mathematical
     errors and unsupported data that resulted in an overstatement of energy savings. Since
     2000, Johnson has paid Honeywell more than $24 million for guaranteed energy savings
     and is scheduled to pay the company an additional $18.7 million over the next 10 years.


     4
         Due to a flawed first year verification report and the lack of subsequent reports, we were unable to
         quantify the actual amount of energy savings Johnson is receiving from the installed conservation
         measures.



ii                                                                                           REPORT NO. IG-13-014
OVERVIEW



  In the absence of reliable and regular verification reports, Johnson managers cannot
  ensure that the conservation measures Honeywell installed are performing as promised or
  that the Center is not overpaying the energy company.

  Johnson Did Not Adjust the Contract for Changed Circumstances that Affected
  Energy Savings Generated by Conservation Measures. Since 2008, Johnson has
  renovated three buildings and demolished a fourth, all of which contained conservation
  equipment installed by Honeywell. 5 The renovations included the complete removal of
  the interior finishes and systems as well as the exterior windows and walls. Accordingly,
  the conservation measures Honeywell installed in these buildings are no longer providing
  energy savings. However, Johnson has not modified the contract to reflect this fact.

  The Johnson contracting officer and contracting officer’s representative both informed us
  that they were unaware of any guidance on adjusting the contract for the renovations and
  demolition and did not seek assistance at the Center or NASA Headquarters to address
  this issue. 6 We confirmed that NASA’s current energy savings performance contracting
  guidance does not address adjusting energy contracts to reflect building renovations and
  demolitions. In addition, NASA’s facility project guidance does not address the issue of
  how to consider the impact on installed guaranteed energy saving measures when
  calculating a building’s renovation or demolition costs. 7

  Johnson Failed to Incorporate Cost Savings Measures to the Contract Modifications
  for Additional Work. Work performed under an energy contract must be funded by the
  energy savings it generates. Contrary to this requirement, between 1999 and 2008,
  Johnson negotiated 26 standalone modifications worth $2.9 million to Honeywell’s
  energy contract without incorporating required cost savings or verification methods
  designed to ensure that Johnson would not pay more for the work than the energy savings
  generated. In 2008, the Johnson contracting officer at the time recognized that these
  modifications were inappropriate and awarded Honeywell a separate five-year
  indefinite-delivery/indefinite-quantity contract, currently valued at $12.5 million.
  However, we found that NASA lacked guidance on this issue.

  Other Matters of Interest. During our review, we found that Johnson overstated the
  value of its energy contract with Honeywell by more than $730,000. We also found that
  by not taking into consideration the possible discrepancy regarding the guaranteed
  savings rate discussed earlier, Johnson may owe Honeywell more than $331,000 as a
  result of inaccurate monthly invoicing.


  5
      From 2008 to 2012, Johnson renovated Building 2 North, Building 12, and Building 29, and demolished
      Building T-585, the Space Operations Modular Complex. Installed energy measures in the buildings
      included variable speed drives, energy efficient lighting, and occupancy sensors.
  6
      Contracting officer’s representative was formerly titled contracting officer’s technical representative.
  7
      NASA Procedural Requirements (NPR) 8570.1, “Energy Efficiency and Water Conservation w/Change 2
      (04/04/08) Revalidated,” March 15, 2001, and NPR 8820.2F “Facility Project Requirements,” January 28,
      2008.



REPORT NO. IG-13-014                                                                                             iii
                                                                                        OVERVIEW



     Conclusion. The guarantee of a specified level of cost savings is at the heart of an
     energy contract. Johnson officials failed to ensure that the conservation modifications
     made to its facilities justify the approximately $2 million annual payment made to
     Honeywell since 2001. In our judgment, without additional measures to improve
     management and oversight of these contracts, it will be difficult for NASA Centers to
     ensure that payments do not exceed guaranteed energy savings.

     Management Action

     NASA officials we spoke with acknowledged that the Agency’s energy savings policy is
     out of date and officials were in the process of updating the policy during our audit. We
     reviewed a draft of the revised policy and suggested additional changes. In addition,
     NASA officials said they plan to prepare a handbook that will contain guidance specific
     to energy contracts.

     In order to reduce the risk of overpayments on energy contracts and implement sound
     management practices, we recommended the Agency:

        •   ensure that guaranteed energy savings are being achieved at Johnson and if not,
            determine whether the Honeywell contract needs to be modified by revising
            expected savings and payments, partially terminating the contract, or fully
            terminating the contract;

        •   finalize the new policy and handbook and ensure that both provide specific
            guidance on management of energy contracts;

        •   revise NPR 8820.2F, “Facility Project Requirements,” to require that estimates for
            renovation or demolition of facilities include the loss of guaranteed savings from
            conservation measures installed pursuant to energy contracts; and

        •   ensure that procurement and technical staff who are responsible for awarding and
            administering energy contracts are adequately trained.

     In response to a draft of this report, NASA disagreed with our first recommendation,
     stating that Johnson’s accounting practices were consistent with Department of Energy
     standards and that implementing changes to the contract would be almost impossible and
     certainly impractical. We disagree. As stated in our report, the Energy Act and Code of
     Federal Regulations require annual verification of savings and this requirement is
     essential to ensuring NASA receives the promised return. Consequently, the Agency’s
     pledge to “continue to review the contract to determine whether modifications are
     necessary to ensure that there are no conflicting contract requirements” was not wholly
     responsive to the recommendation’s intent. Therefore, this recommendation remains
     unresolved and we will continue to monitor NASA’s efforts to ensure that guaranteed
     energy savings are being achieved at Johnson.



iv                                                                         REPORT NO. IG-13-014
OVERVIEW



  The Agency concurred with our other recommendations, agreeing to finalize the new
  policy and handbook, provide guidance on the impact of renovations and demolitions of
  facilities to energy savings, and ensure that energy contract team members obtain
  adequate training and is in the process of implementing corrective actions. We consider
  management’s comments to those recommendations to be responsive. Accordingly, we
  are resolving the recommendations and will close them upon verification they have been
  completed. Management’s response is reprinted in Appendix C.




REPORT NO. IG-13-014                                                                        v
APRIL 8, 2013




                                                       CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 6

  RESULTS
      NASA’s Management of Energy Savings Performance Contracts
        Needs Improvement ________________________________ 8
      Other Matters of Interest ______________________________ 18

  APPENDIX A
      Scope and Methodology _______________________________ 21
      Review of Internal Controls ____________________________ 22
      Prior Coverage ______________________________________ 22

  APPENDIX B
      Energy Conservation Measures and Zones at
         Johnson Space Center _____________________________ 23

  APPENDIX C
      Management Comments ______________________________ 25

  APPENDIX D
      Report Distribution ___________________________________ 28




REPORT NO. IG-13-014
APRIL 8, 2013




                                                                                       INTRODUCTION


Background

  As early as the mid-1980s, Congress recognized that Federal agencies operating under
  tight budgets had difficulty funding improvements to their facilities and operations aimed
  at reducing energy consumption. Consequently, in 1986, Congress amended the National
  Energy Conservation Policy Act of 1978 to authorize agencies to enter into contracts with
  private business to finance energy conservation measures. 8 These contracts are
  commonly referred to as energy savings performance contracts (energy contracts).

  The Energy Policy Act of 1992 and several subsequent executive orders require Federal
  agencies to reduce the consumption of energy in Federal facilities. Most notably, a
  January 2007 executive
  order requires agencies to              Figure 1. NASA's Energy Consumption
  improve energy efficiency                           Fiscal Years 1999 - 2012
  through reduction of
                                          Billion British Thermal Unitsa




  energy use by
                                   11,000
  (1) 3 percent annually
  through the end of fiscal
  year 2015, or (2)                 9,000
  30 percent by the end of
  fiscal year 2015, relative        7,000
  to the agency’s energy use
  in fiscal year 2003. 9
                                                                           5,000
  In 1999, the Johnson                                                          1999
                                                     2001 2003 2005 2007 2009 2011 2013
  Space Center (Johnson)                                             Consumption
  was the first NASA Center Source: NASA Energy Manager.
  to enter into an energy       a
                                  British Thermal Unit is the amount of heat required to raise the
  contract with a private         temperature of one pound of water by one degree Fahrenheit.
  company. Since then,
  NASA Centers have awarded six additional energy contracts, and the Agency is on track
  to meet the requirements of the 2007 executive order (see Figure 1).

  Energy Savings Performance Contracts. An energy contract is a partnership between a
  Federal agency and an energy service company (energy company) that allows the agency
  to undertake energy conservation measures without having to fund the associated upfront

  8
      Public Law 95–619, 92 Stat. 3206, 42 U.S. Code, ch. 91.
  9
      Executive Order 13423, “Strengthening Federal Environmental, Energy, and Transportation
      Management,” January 24, 2007.



REPORT NO. IG-13-014                                                                                  1
                                                                                                 INTRODUCTION



    capital costs. The contracts, which may have terms as long as 25 years, are designed to
    help Federal agencies meet energy efficiency, renewable energy, water conservation, and
    emissions reduction goals by streamlining private-sector contract funding for energy
    management projects.

    In consultation with the Federal agency, the energy company designs a set of
    conservation measures that meet the agency’s energy savings goals – for example, energy
    efficient lighting; building management control systems; and heating, ventilating, and air-
    conditioning system improvements – and arranges the necessary funding. 10 The energy
    company guarantees the
    conservation measures          Figure 2. Benefits of Energy Savings Performance Contracts
    will generate cost savings
    sufficient to pay for
    themselves (including
    finance costs) over the
    term of the contract, and
    the agency pays the
    company out of proceeds
    generated by those cost
    savings. As such, energy
    contracts are designed to
    have no impact on an
    agency’s budget – positive
    or negative – although any
    cost savings generated
    from the conservation
    measures after the contract
    ends accrue to the agency      Source: NASA Office of Inspector General (OIG) analysis of program
                                   information.
    (see Figure 2).

    Measurement and Verification of Energy Conservation Measures. Both the energy
    company and the Federal agency have a role in ensuring that energy conservation
    measures financed by an energy contract generate the guaranteed savings throughout the
    term of the contract, and the Energy Policy Act requires an annual verification of cost
    savings – referred to as measurement and verification (M&V) – to support the savings
    guarantee. The energy company is responsible for ensuring that conservation measures
    are life-cycle cost effective, that is, that the savings they generate meet or exceed the total
    cost of the project over the life of the contract.

    During contract negotiations, the energy company submits an M&V plan outlining the
    methods that will be used to determine whether the agency’s actual energy savings meet
    or exceed the guaranteed amount. Verification methods include surveys, inspections,

    10
         A building management control system allows the Center to program schedules for operating lighting
         and heating systems within buildings. Energy savings are gained by setting air temperatures to maximize
         efficiency and still maintain comfort.



2                                                                                        REPORT NO. IG-13-014
INTRODUCTION



  spot measurements, and short-term metering. Once the conservation measures have been
  implemented, the energy company and the agency verify that the new equipment or
  systems installed are operating properly and have the potential to generate the predicted
  savings. At least annually thereafter, the energy company and the Federal agency verify
  that the installed equipment is being properly maintained, continues to operate, and
  continues to have the potential to generate the predicted savings.

  As part of the ongoing verification process, the energy company is required to identify
  any change in conditions that will affect the guaranteed savings rate, such as physical
  changes to the buildings or changes in hours of use and occupancy. Savings are
  determined by comparing the agency’s energy use before and after acceptance of the
  installed energy conservation measures while making appropriate adjustments for
  changes in conditions. The agency is ultimately responsible for ensuring that the energy
  company delivers on the savings guarantee specified in the contract.

  The main goal of the M&V process is to reduce the risk to agencies of overpayment by
  providing a mechanism to assess actual savings and verify that the guaranteed savings
  amount is being achieved throughout the term of the contract. The agency coordinates
  with the energy company and observes the agreed upon procedures, tests, and
  calculations that support the report. If the report demonstrates that conservation
  measures have not achieved the guaranteed annual savings, the agency is supposed to
  adjust the payment schedule to recover any overpayments, or alternatively, terminate or
  partially terminate the contract (see Figure 3). Every energy contract contains an annual
             Figure 3. Flowchart of Agency and Energy Company Responsibilities
                              during Contract Performance Period




REPORT NO. IG-13-014                                                                          3
                                                                                                    INTRODUCTION



    cancellation ceiling schedule that establishes the maximum termination liability in the
    event of cancellation. 11 The ceiling amount represents the remaining unpaid principal
    plus any prepayment charges, but does not include any amount for lost profit.

    Department of Energy, Federal Energy Management Program. The Department of
    Energy’s Federal Energy Management Program (FEMP) provides Federal agencies with
    legal and funding guidance, project facilitators, experts on emerging and underutilized
    technologies, and training regarding Federal energy management, including the
    implementation of energy contracts. FEMP training is delivered through Federal
    Financing Specialists, project facilitators, and an experienced training team. 12 In
    addition, to simplify and shorten the process of negotiating energy contracts, FEMP
    created “Super Energy Savings Performance Contracts.” Pursuant to this program,
    FEMP awarded indefinite-delivery/indefinite-quantity energy contracts to 16 energy
    companies who have demonstrated the capability to provide energy conservation projects
    to Federal customers (FEMP umbrella contract). Agencies implement energy
    conservation projects by awarding delivery orders against the FEMP umbrella contract.
    Although agencies may still choose to enter into stand-alone energy contracts, using the
    umbrella contract allows agencies to get these projects underway more quickly.

    NASA Guidance on Energy Contracts. NASA’s current guidance addresses various
    aspects of energy contract implementation, including the contracting concept; statutory
    requirements; the Department of Energy’s program; establishing and adjusting a baseline,
    performance guarantee, and payments; and M&V procedures. 13 However, NASA
    published the guidance two years after the Agency entered into its first energy contract
    and has not updated the policy since 2001. NASA is in the process of updating the
    guidance and developing a corresponding handbook.

    NASA Energy Contracts. Since 1999, NASA Centers have awarded seven energy
    contracts. Johnson awarded NASA’s first energy contract to Honeywell International,
    Inc., (Honeywell) in February 1999 using the FEMP umbrella contract. The contract
    provides for installation of 15 conservation measures in various Johnson facilities and
    guarantees energy cost savings of $42.7 million over 22 years, which Johnson will pay
    Honeywell in monthly installments. 14 Conservation measures implemented under the
    contract include variable speed drives for chilled and hot water pumps, air-handling units,
    and cooling towers; lighting improvements; building management control system; and

    11
         Actual termination charges will be negotiated as part of any termination settlement, per established
         Federal Acquisition Regulation requirements.
    12
         FEMP training includes all phases of the energy contract process including acquisition planning, energy
         company selection, negotiation and award, cost elements, design, construction and acceptance, and
         performance period. See http://www1.eere.energy.gov/femp/ (accessed on April 3, 2013) for more
         details.
    13
         NASA Procedural Requirements (NPR) 8570.1, “Energy Efficiency and Water Conservation w/Change 2
         (4/04/08) Revalidated,” March 15, 2001.
    14
         Under the contract, payments are scheduled as follows: $969,285 during the construction period, 10
         annual payments of $2.1 million, 11 annual payments of $1.8 million, and a payment of $1.3 million for
         the last year of the performance period.



4                                                                                          REPORT NO. IG-13-014
INTRODUCTION



  occupancy sensors. 15 To facilitate the installation of these measures, the Center was
  separated into five Zones, and Honeywell installed between 1 and 15 measures in each
  Zone. See Appendix B for a complete listing of installed measures at Johnson and a
  diagram of the Zones.

  In August 1999, Glenn Research Center (Glenn) awarded a 10-year, $1.9 million energy
  contract to Ameresco Solutions, Inc., for energy saving measures including lighting
  system upgrades and lighting controls. 16 In August 2000, Ames Research Center (Ames)
  awarded a $5.1 million energy contract to Johnson Controls, Inc., for installation of
  energy efficient lighting systems in some buildings and enhancements to its building
  management control system. Ames awarded a second energy contract to Johnson
  Controls in March 2002 for $4.7 million to install efficient lighting in more buildings.
  Wallops Flight Facility (Wallops) awarded an energy contract to Ameresco Select, Inc.,
  in December 2009 for improvements such as high-resolution lighting retrofits, boiler
  decentralization, and building automation system upgrades. 17 In 2012, Wallops added
  another phase to the contract for installation of geothermal heat pumps, for a total
  contract value of $35.8 million. The first phase of construction was completed in May
  2012, and Wallops received the post-installation report from Ameresco Select, Inc., in
  November 2012. Construction on the second phase of the contract is expected to be
  complete in April 2013.

  Goddard Space Flight Center (Goddard) awarded a $6.8 million energy contract to
  Ameresco Select, Inc., in March 2010 for improvements in lighting efficiency and
  installation of a water side economizer, which is a device used to create chilled water
  from the evaporative cooling capacity of cooling towers during winter months.
  Installation of the measures was completed in February 2012, and Goddard received the
  post-installation report from the company in June 2012. Four months into the first M&V
  reporting cycle, Goddard paid off the contract, saving more than $1.8 million in financing
  costs that would have accrued over the life of the contract.

  Lastly, the Jet Propulsion Laboratory (JPL) awarded an energy contract to Clark Energy
  Group, LLC (Clark), in January 2011 for lighting improvements, modifying air-handling
  units, and installing high-efficiency chillers and boilers. JPL awarded a second phase of
  the contract in November 2012 for additional lighting improvements, high-efficiency
  chillers, and other improvements for a total contract value of $36.5 million. The first
  phase of the contract was completed in March 2012, and JPL received the post-
  installation report from Clark in May 2012. JPL plans to have Phase 2 completed in
  2014.



  15
       A variable speed drive on a pump motor saves energy by allowing the motor to adapt to changing
       requirements compared to a constant speed pump, which consistently runs at maximum speed.
  16
       Because this contract was completed three years prior to the start of our audit, we did not review files
       associated with the awarding and administering of the contract.
  17
       Ameresco Solutions and Ameresco Select are both subsidiaries of Ameresco, Inc.



REPORT NO. IG-13-014                                                                                              5
                                                                                                      INTRODUCTION



    In all, NASA has awarded more than $130 million of energy contracts since 1999, and all
    but the Glenn and Goddard contracts remain active (see Table 1). In addition, following
    a December 2011 Presidential Memorandum that requires the Federal government to
    enter into a minimum of $2 billion of energy contracts within 24 months, NASA
    committed to awarding $19 million in contracts by December 2013. 18

                          Table 1. NASA's History of Energy Savings Performance Contracts Awarded
                                                                                                                  Total
                                                                                                   Period of
               Center                       Contractor            Contract Value   Award Date                  Guaranteed
                                                                                                 Performance
                                                                                                               Cost Savings
                                  Johnson Controls,
Ames Research Center              Government Systems               $5,127,880      8/21/2000       19 years     $5,127,899
                                  Johnson Controls,
Ames Research Center                                               $4,716,178      3/29/2002       17 years     $4,749,187
                                  Government Systems
Glenn Research Center             Ameresco Solutions, Inc.         $1,948,474       8/5/1999       10 years     $1,980,919
Goddard Space Flight Center       Ameresco Select, Inc.            $6,789,717       3/2/2010       11 years     $7,568,760
Jet Propulsion Laboratory         Clark Energy Group, LLC          $36,543,526     1/21/2011       20 years    $36,633,066
Johnson Space Center              Honeywell International, Inc.    $42,709,006     2/18/1999       22 years    $42,709,006
Wallops Flight Facility           Ameresco Select, Inc.            $35,823,353     12/22/2009      14 years    $36,931,056
NASA’s Total Energy Savings Performance Contracts                 $133,658,134                                 $135,699,893



Objectives

    We evaluated whether NASA effectively managed, monitored, and controlled energy
    contracts to ensure that payments do not exceed the savings guaranteed in the contracts.
    Specifically, we examined if NASA adequately:

           •   reviewed annual M&V reports to ensure contracts generate the guaranteed cost
               savings;

           •   reviewed and verified that baselines were supported, justified, and kept current
               with subsequent changes to facilities; and

           •   complied with applicable laws and regulations that govern modification of the
               contracts.




    18
         “Implementation of Energy Savings Projects and Performance-Based Contracting for Energy Savings,”
         December 2, 2011.



6                                                                                              REPORT NO. IG-13-014
INTRODUCTION



  As noted, Glenn and Goddard closed out their energy contracts in 2009 and 2012,
  respectively. Moreover, JPL and Wallops’ energy contracts are still early in their
  performance periods, and neither facility had received an M&V report at the time of our
  field work. Accordingly, this report discusses our findings with regard to the Johnson
  and Ames contracts in an effort to provide “lessons learned” for efforts underway or
  planned at other NASA Centers. See Appendix A for details of the audit’s scope and
  methodology, our review of internal controls, and a list of prior coverage.




REPORT NO. IG-13-014                                                                        7
                                                                                                                RESULTS




                                    NASA’S MANAGEMENT OF ENERGY SAVINGS
                                           PERFORMANCE CONTRACTS NEEDS
                                                           IMPROVEMENT
               We found that Johnson mismanaged its $42.7 million energy contract. Specifically,
               Johnson officials did not require Honeywell to submit annual M&V reports and
               accepted a flawed M&V report for the first year, did not consider the effect of
               renovations to or demolition of facilities on the guaranteed savings rate, and added
               work to the contract without ensuring that energy savings would cover the additional
               costs. Based on our interviews and document review, it was apparent that Johnson
               contracting officials did not effectively administer the energy contract. Moreover,
               neither Johnson nor the Agency had developed sufficient guidance or an effective
               training program regarding administration of energy contracts. As a result, Johnson
               may have overpaid Honeywell because it cannot verify that the conservation
               measures installed under the contract resulted in the guaranteed $2 million in annual
               energy savings. 19

               To avoid similar problems at other Centers, NASA needs to improve its guidance
               and training. For example, although Ames appears to be effectively managing its
               energy contracts, it has not yet faced the situation of needing to adjust its energy
               contracts to account for facility renovation or demolition. In addition, because the
               energy contracts at JPL and Wallops are in their first year of performance, issuance
               of improved guidance and training could help managers there avoid future problems.

Poor Verification Reporting Leads to Mismanagement of Energy
  Contracts at Johnson

    Johnson did not require annual M&V reports, and the sole M&V report submitted was
    flawed. After receiving the initial M&V report in 2001 following installation of the
    energy conservation measures, Johnson officials did not require Honeywell to submit
    annual M&V reports verifying that the contract’s conservation measures continued to
    generate the guaranteed savings. In addition, we found that Honeywell’s sole M&V
    report contained unreliable data. Since 2000, Johnson has paid Honeywell more than
    $24 million for guaranteed energy savings as specified in the contract and is scheduled to
    pay the company an additional $18.7 million over the next 10 years. In the absence of
    reliable and regular M&V reports, Johnson managers cannot ensure that the conservation
    measures Honeywell installed are performing as promised or that the Center is not
    overpaying the energy company.



    19
         Due to a flawed first year verification report and the lack of subsequent reports, we were unable to
         quantify the actual amount of energy savings Johnson is receiving from the installed conservation
         measures.



8                                                                                           REPORT NO. IG-13-014
RESULTS



  Reporting Requirements in the Contract. In our review of Johnson’s energy contract,
  we found conflicting requirements regarding the M&V reporting required of Honeywell.
  For example, the contract included requirements that Honeywell measure, document, and
  report energy savings through year five of the contract (2004) via an annual M&V report,
  and that the format and frequency of reporting beyond that period would be determined
  later. However, this provision conflicts with another section of the contract that requires
  Honeywell to perform an annual audit to measure the performance of the conservation
  measures. It also conflicts with the FEMP umbrella-contract, which requires that energy
  savings must be verified annually. 20

  Reports Submitted Do not Verify Guaranteed Savings. Only one of Honeywell’s
  reports compared energy costs after installation of energy measures with costs before
  installation. In 2001, Honeywell submitted and Johnson accepted an initial M&V report
  purporting to show that the conservation measures had generated the guaranteed first-
  year savings of $2 million. 21 Honeywell did not submit another report until 2003, when
  it began annually submitting energy usage reports by facility in lieu of the M&V
  reports. 22 Unlike M&V reports, these reports do not measure and verify guaranteed
  energy savings. Rather, they simply report the difference between the actual energy used
  and the amount the facility was expected to use that year. For example, in 2004,
  Honeywell reported that Johnson used 338,000 more kilowatt-hours than it had planned
  to use that year. This data is not sufficient to verify that the installed conservation
  measures generated the savings guaranteed in the contract.

  We could not find any documentation in the contract file discussing M&V reporting
  requirements, whether Johnson had authorized Honeywell to change its reporting format,
  or the reporting requirements beyond the initial M&V report. Further, Johnson’s
  contracting officer’s representative (COR) told us that he was not aware of his
  responsibilities for ensuring Honeywell documented guaranteed savings. He also said he
  had not initially received any training specific to energy contracts and told us that the
  COR who served before him had not requested annual M&V reports. Nonetheless,
  Johnson officials continued to approve monthly payments even though guaranteed
  savings were not verified. Contrary to the contract language, Honeywell officials told us
  they did not provide M&V reports because they did not believe they were contractually
  obligated to do so since they verified the first-year savings.

  M&V Report Received after Installation was Unreliable. Further, when we reviewed
  that sole M&V report, we identified discrepancies that Johnson should have identified

  20
       Code of Federal Regulations, Title 10, “Energy, Part 436 - Federal Energy Management and Planning
       Programs,” defines an annual energy audit as a verification of the achievement of the guaranteed energy
       cost savings resulting from implementing energy conservations measures and a determination of whether
       an adjustment to the energy baseline is justified by conditions beyond the company’s control.
  21
       Honeywell’s performance period is 22 years and the first year verification period ran from September 1,
       2000, through August 31, 2001.
  22
       Honeywell refers to the submitted energy usage reports as the Heating, Ventilation, and Air Conditioning
       and Lighting Energy Report.



REPORT NO. IG-13-014                                                                                              9
                                                                                                          RESULTS



     and addressed prior to approving the $2.1 million payment. Specifically, we found that
     the supporting spreadsheets contained mathematical errors and unsupported data that
     resulted in an overstatement of savings. Because of the errors, we were not able to
     accurately determine the savings actually obtained.

     Honeywell’s M&V Plan. During contract negotiations, Johnson and Honeywell agreed to
     an M&V Plan that described the methodology Honeywell would follow for measuring
     and documenting energy savings for each conservation measure in each Zone. For
     example, for the conservations measure where Honeywell installed variable speed drives
     on the motors of chilled and hot water pumps and air-handling units, Honeywell was to
     calculate a motor load factor to estimate the motor’s true performance. 23 To calculate the
     motor load factor, Honeywell statistically sampled the exact voltage and current
     measurements from 37 percent of the existing motors, which resulted in an estimated
     motor load factor of 0.65. 24 The statistical approach also stated that because exact
     voltage and current measures were obtained from the sampling set, motor inefficiencies
     were then incorporated in the measured performance parameters. Honeywell would then
     utilize the statistically calculated motor load factor (0.65) to calculate energy savings by
     comparing the motors’ performance before installation of the variable speed drives to
     their performance during the year after installation.

     Overstated Savings from Installed Variable Speed Drives. Honeywell submitted
     documentation to support the $2 million guaranteed energy savings for the installed
     conservation measures in all Zones for the first year. To test Honeywell’s support, we
     analyzed Honeywell’s calculation of savings generated from the variable speed drives
     installed in Zone 1 facilities. 25 Honeywell claimed that at the end of the first year, the
     drives produced $24,829 more in energy savings then the amount they guaranteed for
     Zone 1. However, we calculated the additional savings were only $4,753, or less than
     one-fifth the amount it claimed because of Honeywell’s inconsistent use of the motor
     load factor.

     Specifically, Honeywell inappropriately adjusted actual energy costs based on the motor
     load factor for the installed variable speed drives. If the factor adjustment was in their
     favor, they adjusted actual energy costs. However, if the adjustment was in Johnson’s
     favor, Honeywell did not make the adjustment. Honeywell agreed in the M&V Plan to
     use a statistically determined 0.65 motor load factor that took into account motor

     23
          Motor load factor represents the ratio of the load the motor actually draws when in operation as
          compared to the full load it could draw at 100 percent. For example, a 20 horsepower motor that draws a
          constant 13 horsepower load whenever it is on would have a motor load factor of 65 percent or “0.65”
          (13/20).
     24
          Honeywell performed the statistical sample with a 90 percent confidence level using 5 percent precision
          which means Honeywell was 90 percent confident that the “0.65” motor load factor was within 5 percent
          of the true motor load.
     25
          Zone 1 represents 12 buildings at Johnson that had variable speed drives installed on chilled and hot
          water pumps and air handling units as an energy saving measure. We did not perform similar reviews on
          the other Zones at the Center, but Honeywell installed the same type of equipment in some of the other
          Zones.



10                                                                                        REPORT NO. IG-13-014
RESULTS



  inefficiencies. Because the statistical sampling already accounted for motor
  inefficiencies, Honeywell should not have made any adjustments to actual energy costs
  and at the very least, if adjustments were made, all adjustments should have been
  accepted, not just adjustments in Honeywell’s favor.

  Although our calculation still results in more energy savings than the guaranteed amount
  for Zone 1, we found other deficiencies in Honeywell’s documentation that cast further
  doubt on whether guaranteed savings were actually achieved. For example, the
  spreadsheet showed the cumulative actual costs for one chilled water pump remained the
  same from June 2001 through August 2001, while the cumulative actual costs for another
  pump unexplainably decreased by more than 50 percent between June 2001 and
  July 2001. Based on this and other discrepancies, we could not determine with certainty
  that the installation of the variable speed drives had actually resulted in the amount of
  savings guaranteed in the contract. We asked FEMP representatives – the authoritative
  experts on the energy contract process – to examine Honeywell’s M&V report and
  supporting documentation that we reviewed. They agreed with our assessment, identified
  additional discrepancies, and concluded that it would be difficult to run alternate
  calculations to see if savings were actually obtained.

  Based on our review, it was apparent that Johnson contracting officials failed to provide
  appropriate oversight to ensure Honeywell’s energy contract produces guaranteed
  savings. The current COR did not review any M&V reports and did not take action to
  ensure that Honeywell submitted annual M&V reports. Moreover, neither the Center nor
  the Agency offers sufficient guidance or an effective training program relating to these
  contracts. Training focused specifically on overseeing these type contracts is critical
  given the complexities of verifying guaranteed savings and the long-term nature of
  energy contracts to ensure that Centers do not make payments that exceed the guaranteed
  savings amount.

Johnson Did Not Adjust the Contract for Changed Circumstances
  that Affected Energy Savings Generated by Conservation
  Measures

  In addition to not receiving M&V reports, we found that the contracting officer at
  Johnson did not adjust the Honeywell contract after buildings in which conservation
  measures had been installed were demolished or extensively renovated. Because energy
  contracts can last up to 25 years, it is inevitable that changes in site conditions like
  occupancy rates, renovations, demolitions, and technological advances will affect savings
  rates. As such, Federal law requires agencies and energy companies to audit
  conservation projects at least once a year and, as part of that audit, determine whether an
  adjustment to the contract is justified to reflect significant changes to the site. 26 If such



  26
       Energy Policy Act of 1992 and Code of Federal Regulations, Title 10, Part 436.



REPORT NO. IG-13-014                                                                               11
                                                                                                        RESULTS



     changes are identified, the agency is required to update the contract by documenting the
     changes in the contract file (normally this would be part of the annual M&V report),
     modifying the contract to reflect revised expected savings rates, or partially or fully
     terminating the contract.

     Since 2008, Johnson has renovated three buildings and demolished a fourth, all of which
     contained energy conservation equipment installed by Honeywell (see Figure 4). The
     renovations included the complete removal of the interior finishes and systems as well as
     the exterior windows and walls. Accordingly, the conservation measures Honeywell
     installed are no longer
     providing energy                  Figure 4. Demolition of Johnson’s Building T-585
              27
     savings. However,                                     July 2012
     Johnson took no action to
     modify the Honeywell
     contract to reflect the
     renovation or demolition
     of all four of these
     buildings.

     The Johnson contracting
     officer and COR told us
     they were not aware of
     any guidance on the
     subject. We reviewed
     NASA’s energy savings               Source: NASA.
     performance contracting
     guidance and found that while it does discuss adjusting the baseline for such changes as
     usage of a building, it does not specifically discuss adjusting energy contracts to reflect
     renovations and demolitions. 28 In addition, NASA’s facility project guidance does not
     suggest procedures to ensure that the impact on installed guaranteed energy saving
     measures is considered when calculating a building’s renovation or demolition costs. 29

Johnson Failed to Incorporate Cost Savings Measures to the
  Contract Modifications for Additional Work

     Work performed under an energy contract must be funded by the energy savings the work
     generates. Contrary to this requirement, Johnson negotiated separate fixed-price task
     orders for additional work from Honeywell without assessing the required guaranteed
     27
          Johnson renovated Building 2 North (Office of Communications and Public Affairs), Building 12
          (Administrative Support), and Building 29 (Crew Exploration Vehicle Integrated Avionics Laboratory)
          to meet Leadership in Energy and Environmental Design criteria. In July 2012, Johnson demolished
          Building T-585 (Space Operations Modular Complex). Honeywell had installed variable speed drives
          and efficient lighting and occupancy sensors in each of these buildings.
     28
          NPR 8570.1, “Energy Efficiency and Water Conservation w/Change 2 (4/04/08) Revalidated.”
     29
          NPR 8820.2F, “Facility Project Requirements,” January 28, 2008.



12                                                                                      REPORT NO. IG-13-014
RESULTS



  energy savings. 30 Specifically, between 1999 and 2008 Johnson negotiated 26 standalone
  modifications to Honeywell’s energy contract worth $2.9 million, which increased the
  contract value from $42.7 million to $45.6 million. Johnson paid Honeywell about
  $2.7 million for this additional work. 31 While it appears that the work was within the
  scope of the contract, the modifications failed to incorporate required cost saving
  measures or verification methods designed to ensure that Johnson would not pay more for
  the work than the energy savings it generated. Rather, Johnson negotiated the
  modifications as if they were changes to a standard fixed-price contract.

  In 2008, Johnson officials recognized that these modifications were inappropriate and
  awarded Honeywell a separate five-year, indefinite-delivery/indefinite-quantity contract,
  currently valued at $12.5 million. Similarly, we found that NASA lacked written
  guidance on this issue.

Ames Contracts Have Been Effectively Managed to Date

  We found that Ames has effectively managed its energy contracts with Johnson Controls,
  Inc. In August 2000, Ames awarded a $5.1 million energy contract to Johnson Controls
  for installation of energy efficient lighting systems in several buildings and enhancements
  to its building management control system. Ames awarded a second energy contract to
  Johnson Controls in March 2002 for $4.7 million to install energy efficient lighting in
  additional buildings at the Center. 32 The same contracting officer and COR team has
  provided consistent oversight of the contracts since award and they have consistently
  received and reviewed annual M&V reports. In addition, although Johnson Controls
  estimated that the installed energy measures would produce a certain level of savings,
  they guaranteed a lesser amount and based Ames’ payment stream on this lesser amount.
  This methodology left a cushion in the event the conservation measures did not produce
  as much savings as expected over the life of the contract.

  Unlike at Johnson, Ames has received and reviewed annual M&V reports from its energy
  company (Johnson Controls) for the last 10 years. The reports certified that the installed
  conservation measures are continuing to generate the guaranteed savings and accounted
  for the effect renovated or demolished buildings had on those projected savings.
  Additionally, in February 2012, Johnson Controls offered Ames the option to modify the
  contracts due to demolished buildings and document the changed conditions. Ultimately,
  the site changes did not require adjustment to contract payments because actual savings
  have not dropped below the negotiated guaranteed savings rate.




  30
       The additional work included consultation for to provide lighting for parking lots, streets, mall walks,
       and high bays at the Center.
  31
       Johnson paid Honeywell about $2.7 million for the negotiated $2.9 million in modifications.
  32
       The Ames energy contracts terms are 19 and 17 years, respectively.



REPORT NO. IG-13-014                                                                                              13
                                                                                            RESULTS



Conclusion

     The guarantee of a specified level of cost savings and performance is at the heart of an
     energy contract. By that measure, Johnson officials failed to ensure that modifications
     made to its facilities justify the approximately $2 million annual payment made to
     Honeywell since 2001. In our judgment, without additional measures to improve
     management and oversight of these contracts, it will be difficult for NASA Centers to
     ensure that payments do not exceed guaranteed energy savings.

     NASA officials we spoke with acknowledged that the Agency’s energy savings policy is
     out of date, which NASA was in the process of updating the policy during our audit. We
     reviewed a draft of the revised policy and suggested additional changes. In addition,
     NASA officials said it plans to prepare a handbook, which will contain guidance specific
     to energy contracts.

Recommendations, Management’s Response, and Evaluation of
  Management’s Response

In order to reduce the risk of overpayments on energy contracts and implement sound
management practices, we recommended that the Johnson Director, Office of Procurement:

Recommendation 1. Ensure that guaranteed energy savings are being achieved at Johnson
and if not, determine if the Honeywell contract needs to be modified by revising expected
savings and payments, partially terminating, or fully terminating the energy contract.

     Management’s Response. Johnson’s Center Director and Johnson’s Director of
     Procurement disagreed with the recommendation, stating that energy savings have been
     validated in accordance with the contract, arguing that the OIG’s “preferred metrics” for
     measuring energy savings are not in conformance with the contract and would be almost
     impossible and certainly impractical to implement. They also noted that while Johnson
     will continue to review the contract to determine if any modifications are necessary to
     ensure there are no conflicting contract requirements, further review to modify, partially
     terminate, or fully terminate the contract would be unwarranted.

     Specifically, Johnson officials contend that the contract did not require Honeywell to
     submit annual M&V reports because Johnson selected FEMP-approved Option A for
     energy savings reporting. Their response notes that Option A is an approach designed for
     projects in which the potential to generate savings must be verified, but the actual savings
     can be determined from short-term measurements, estimates, and engineering
     calculations. Further, they state that while the contract required M&V reports for several
     energy measures for the first year, thereafter it required only annual reporting of kilowatt-
     hour savings, which Honeywell supplied in the form of monthly heating, ventilation, air
     conditioning, and lighting reports that detailed hours of operation, kilowatt hours,
     equipment operating costs and identified equipment that operated more than the



14                                                                           REPORT NO. IG-13-014
RESULTS



  scheduled operating hours. Finally, Johnson officials did not agree that Honeywell’s
  initial M&V report was flawed and contained unreliable data or that Honeywell
  inappropriately adjusted actual energy costs relative to the motor load factor.

  Evaluation of Management’s Response. We disagree with the assertion that Johnson
  appropriately validated energy savings and that the recommendation reflects the OIG’s
  preferred metrics for energy savings verification. Rather, as stated in our report the
  Energy Act and Code of Federal Regulations require annual verification of savings. In
  addition, Johnson’s contract with Honeywell requires the measurement, documentation,
  and reporting of energy savings through year five, as well as delivery of an annual energy
  audit (defined by the Code as a verification of the achievement of guaranteed energy cost
  savings) and annual reporting of kilowatt-hour savings. Therefore, the metrics we
  identified are statutory and contractual requirements. Further, we believe it is not
  possible to determine whether promised energy savings are being achieved absent these
  measures.

  While we found conflicting requirements in the Johnson contract regarding M&V
  reporting, the contract requires measurement of documented annual energy savings. We
  disagree that Johnson’s selection of FEMP’s Option A for validating guaranteed energy
  savings relieves the Center from complying with this requirement. Further, we disagree
  that Honeywell is identifying kilowatt-hour savings and meeting contractual requirements
  by providing monthly heat, ventilation, air conditioning, and lighting reports. These
  reports do not verify that the energy savings were achieved as required by the Act and
  Code of Federal Regulations and do not identify kilowatt-hour energy savings as required
  in the contract. Rather, they identify only the difference between actual energy usage and
  the amount the facility was scheduled to use that year. For example, in 2004, Honeywell
  reported that Johnson used 338,000 more kilowatt-hours than it had planned to use that
  year. This data is not sufficient to verify that the installed conservation measures
  generated the savings guaranteed in the contract.

  Moreover, we continue to believe that Honeywell’s first year M&V report was overstated
  and unreliable due to inappropriate adjustments and mathematical errors. For example,
  the statistical sampling method used to derive the motor load factor already accounted for
  motor inefficiencies and Honeywell should not have adjusted for the true motor load
  factor. In addition, while we acknowledge that we limited our review to deficiencies
  found in Zone 1, FEMP officials corroborated our finding that the M&V report was
  unreliable. In fact, these officials identified additional discrepancies in the M&V data
  and concluded that it would be difficult to run alternative calculations to see if savings
  were actually achieved.

  Finally, we contend that further review of the contract with regard to energy savings is
  warranted due to changed site conditions to four buildings. Because of renovations and
  demolition, Honeywell’s installed conservation measures in the affected buildings are no
  longer providing energy savings and Johnson has taken no action to document or modify
  the Honeywell contract to reflect this fact. As stated in our report, Federal law requires
  an annual audit to determine whether an adjustment to the contract is needed to reflect


REPORT NO. IG-13-014                                                                           15
                                                                                            RESULTS



     significant changes to the site. If such changes are identified, the agency is required to
     update the contract by documenting the changes in the contract file, modifying the
     contract to reflect revised expected savings rates, or partially or fully terminating the
     contract.

     Given these concerns, our recommendation remains unresolved and we will continue to
     monitor Johnson’s efforts to ensure that guaranteed energy savings are being achieved at
     Johnson.

We also recommended that NASA’s Assistant Administrator, Office of Strategic
Infrastructure:

Recommendation 2. Finalize the new policy and handbook and ensure that both provide
specific guidance on management of energy contracts.

     Management’s Response. NASA’s Assistant Administrator, Office of Strategic
     Infrastructure concurred, stating that NASA will ensure Agency guidance references
     Department of Energy, energy savings performance contract guidance, and contract
     management tools. The estimated completion date is September 22, 2014.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive; therefore, the recommendation is resolved and will be closed upon
     completion and verification of the corrective actions.

Recommendation 3. Revise NPR 8820.2F, “Facility Project Requirements,” to require that
estimates for renovation or demolition of facilities include the loss of guaranteed savings
from conservation measures installed pursuant to energy contracts.

     Management’s Response. NASA’s Assistant Administrator, Office of Strategic
     Infrastructure concurred, but stated that in lieu of modifying NPR 8820.2F, NASA will
     ensure Agency energy contract guidance requires CORs to perform periodic surveys of
     facilities during the course of the contract to capture building configuration changes that
     impact energy contracts funded systems. The representatives will be required to modify
     the energy contract to account for those configuration changes. The estimated
     completion date is September 22, 2014.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive; therefore, the recommendation is resolved and will be closed upon
     completion and verification of the corrective actions.

Recommendation 4. In conjunction with the Assistant Administrator, Office of
Procurement, ensure that procurement and technical staff who are responsible for awarding
and administering energy contracts are adequately trained.




16                                                                           REPORT NO. IG-13-014
RESULTS



  Management’s Response. NASA’s Assistant Administrator, Office of Strategic
  Infrastructure concurred, stating that NASA will ensure Agency energy guidance requires
  team members to obtain adequate training such as courses available from Department of
  Energy. The estimated completion date is September 22, 2014.

  Evaluation of Management’s Response. Management’s proposed actions are
  responsive; therefore, the recommendation is resolved and will be closed upon
  completion and verification of the corrective actions.




REPORT NO. IG-13-014                                                                        17
                                                                                          RESULTS




                                                  OTHER MATTERS OF INTEREST

Contract Administration Lacked Oversight and Good
  Recordkeeping

     During our review of Johnson’s energy contract, we found that Johnson reported a
     contract value of $46.32 million in the NASA Procurement database. However, we could
     not account for more than $730,000 in our review of the contract files, including
     $2.9 million of modifications (see Table 2).

                        Table 2. Computation of Discrepancy in Johnson
                                 Contract # NAS9-99075 Value
                     Contract Award Amount                   $42,709,006.00
                     Awarded Modifications                   $ 2,877,908.05
                          Contract Value                     $45,586,914.05
                     Reported Value                          $46,317,063.00
                          Difference                         $   730,148.95

     Not taking into consideration the possible discrepancy regarding the guaranteed savings
     rate discussed previously, we found that Johnson may owe Honeywell more than
     $331,000 as a result of inaccurate monthly invoicing.

     In conjunction with energy savings verification, the energy contract obligated NASA to
     make 120 monthly payments of $172,807 beginning in August 2000 and ending in
     July 2010. Then beginning with year 11 (August 2010), the payments were reduced to
     $149,473 per month for the remaining 12 years. While we found Honeywell submitted
     120 invoices for $172,807, two payments came after the end of the period ending
     July 2010. We could not determine why Honeywell did not submit an invoice or receive
     payments for August 2002 and February 2003 or submitted invoices for the first two
     months of year 11 (August and September 2010) at the $172,807 rate instead of reducing
     the invoice to $149,473 per month. As a result, Honeywell overbilled $46,668 of
     guaranteed savings for August and September 2010. In our judgment, Honeywell
     erroneously overbilled the guaranteed savings because they did not realize that they failed
     to submit invoices for August 2002 and February 2003. All subsequent invoices have
     been at the reduced rate of $149,473. Further, we did not find any documentation in the
     file that would relieve the Agency from owing Honeywell for energy savings from
     August 2002 and February 2003, which, if validated, would result in a
     $345,614 expenditure.

     In addition, we discovered that Honeywell under-billed one month of $31,783 in
     servicing costs during the first year of performance (August 2000 to July 2001). During


18                                                                          REPORT NO. IG-13-014
RESULTS



  the four months between October 2000 and January 2001, Honeywell did not include
  $31,783 of servicing costs in their monthly invoices. It appears Johnson and Honeywell
  tried to correct the error, and Honeywell added $31,783 to the invoices for the next three
  months, February 2001 through April 2001. This resulted in one month of servicing costs
  going unbilled. Finally, between August 2000 and August 2001, Johnson made an
  additional $499 of miscellaneous adjustments to invoices, which included an adjustment
  to a previous payment.

  These discrepancies could result in a net liability to Johnson of $331,228 (see Table 3).

        Table 3. Summary of Johnson’s Potential Liability to Honeywell International, Inc.,
                                        NAS9-99075
                                 Performance Periods 1 - 12
         Post-Construction
                                      Guaranteed           Amount Invoiced
        Performance Period                                                          Difference
                                       Savings              by Honeywell
           August - July

           1. 2000 - 2001            $ 2,073,684.00           $ 2,041,768.84        ($31,915.16)a
           2. 2001 - 2002            $ 2,073,684.00           $ 2,073,316.75           ($367.25)b
           3. 2002 - 2003            $ 2,073,684.00           $ 1,728,070.00       ($345,614.00)c
           4. 2003 - 2004            $ 2,073,684.00           $ 2,073,684.00                  $0
           5. 2004 - 2005            $ 2,073,684.00           $ 2,073,684.00                  $0
           6. 2005 - 2006            $ 2,073,684.00           $ 2,073,684.00                  $0
           7. 2006 - 2007            $ 2,073,684.00           $ 2,073,684.00                  $0
           8. 2007 - 2008            $ 2,073,684.00           $ 2,073,684.00                  $0
           9. 2008 - 2009            $ 2,073,684.00           $ 2,073,684.00                  $0
          10. 2009 - 2010            $ 2,073,684.00           $ 2,073,684.00                  $0
          11. 2010 - 2011            $ 1,793,676.00           $ 1,840,344.00         $46,668.00d
          12. 2011 - 2012            $ 1,793,676.00           $ 1,793,676.00                  $0
             Total                  $ 24,324,192.00          $ 23,992,963.59       ($331,228.41)
    a
      No invoice for one month of Service Fee ($31,783.00) + $132.16 adjustments
    b
      Reduction for fiscal year 2001 payment
    c
      No invoice for August 2002 and February 2003 ($172,807.00 each month)
    d
      Overbilling for August and September 2010 ($23,334.00 each month)



  If Honeywell does submit an invoice for the amounts in question, Johnson will have to
  determine if the claim is valid taking into consideration the other weaknesses we
  identified in the audit. In addition, because the amounts in question were from previous
  year obligations, a determination would have to be made if expired or cancelled funds are


REPORT NO. IG-13-014                                                                                19
                                                                                         RESULTS



     available. Any invoice reflecting a valid charge that is received after an account has
     closed must be obligated against and disbursed from budget authority that is available for
     the same general purpose but still in the unexpired phase.

     Management Actions. We informed Agency officials of the overstated contract value
     and Honeywell’s erroneous billing. The contracting officer is attempting to reconcile the
     discrepancies and is working with Honeywell to address the matter.




20                                                                         REPORT NO. IG-13-014
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from May 2012 through March 2013 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  The scope of our audit included controls and management of active energy contracts at
  Ames, Goddard, JPL, Johnson, and Wallops. We excluded the energy contract at Glenn
  since it was completed in 2009. Our review included establishment of the baseline for
  energy cost savings, subsequent changes to the baseline, M&V, reporting requirements,
  payments that did not exceed actual energy cost savings, and possible energy contract
  termination. For this review, we performed audit field work at NASA Headquarters,
  Ames, Goddard, JPL, Johnson, and Wallops.

  To accomplish the review, we identified and reviewed laws, regulations, policies,
  procedures, and controls pertaining to the management of energy contracts. Specifically,
  we reviewed the Energy Policy Act and amendments; Energy Independence and Security
  Act of 2007; Federal Energy Management Improvement Act of 1988; executive orders;
  Presidential Memorandum; Title 42 of U.S. Code – The Public Health and Welfare,
  Chapter 91 – National Energy Conservation Policy, Subchapter III – Federal Energy
  Initiative; and Title 10 of the Code of Federal Regulations, Part 436 – Federal Energy
  Management Planning Programs.

  We reviewed the Memorandum of Understanding between NASA and the Department of
  Energy for participation in Super Energy Savings Performance Contracts, dated April
  1997. We also reviewed the Interagency Agreements between the NASA Centers and
  Department of Energy.

  To understand NASA’s energy contract policies and their implementation of that policy,
  we reviewed NPR 8570.1, “Energy Efficiency and Water Conservation w/Change 2
  (4/04/08) Revalidated,” and NPR 8820.2F, “Facility Project Requirements.” In addition,
  we reviewed Johnson Policy Directive 8500.1, “JSC Environmental Excellence Policy,”
  March 2, 2004, and Johnson Work Instruction 8570.1, “Energy Conservation,"
  November 18, 2009.

  To obtain an understanding of FEMP requirements and involvement in energy contracts,
  we interviewed Department of Energy experts including contracting officers, finance
  specialist, and technical experts. We also attended the “Energy Savings Performance


REPORT NO. IG-13-014                                                                          21
                                                                                    APPENDIX A



     Contract Comprehensive Workshop,” administered by the Department of Energy’s FEMP
     representatives. In addition, we reviewed the Department of Energy website, related to
     FEMP and FEMP “M&V Guidelines: Measurement and Verification for Federal Energy
     Projects.” We also reviewed the contracts each of the energy companies had with the
     Department of Energy and the associated contract modifications during the period of
     1998 through 2008.

     To accomplish our review of the processes used to manage NASA’s energy contracts, we
     interviewed NASA Headquarters officials with the Office of Strategic Infrastructure and
     Office of Procurement. At the NASA Centers, we interviewed the energy contract’s
     contracting officer, CORs, Financial Management Directorate representatives, and the
     Energy Manager.

     We reviewed the contract files and manually listed payment files for Honeywell at
     Johnson; the contract files and payment records for Johnson Controls Government
     Systems at Ames; Clark Energy Group at JPL; and Ameresco Select, Inc., at Goddard
     and Wallops.

     Use of Computer-Processed Data. We reviewed computer-processed data, such as
     Johnson supplied spreadsheet supporting Honeywell’s M&V report. We found that the
     spreadsheets supporting Honeywell’s M&V report contained mathematical errors and
     unsupported data that resulted in an overstatement of energy savings. Because of the
     inaccuracy of the data, we were unable to quantify the actual amount of energy savings
     Johnson was receiving from the installed conservations measures and discuss the impact
     on our review in the “Results” section of the report.

Review of Internal Controls

     We reviewed NASA’s compliance with polices and guidance over the management of
     energy contracts, such as the U.S. Code, executive orders, the Code of Federal
     Regulations, NASA regulations, and FEMP Measurement and Verification Guidelines.
     The audit identified weaknesses in NASA’s internal controls over energy contracts and
     found that NASA’s administration of energy contracts need improvements. See the
     “Results” section of the report for details.

Prior Coverage

     During the last five years, the NASA OIG and the Government Accountability Office
     (GAO) have not issued any reports of relevance to the subject of this report. However,
     GAO issued “Energy Savings: Performance Contracts Offer Benefits, but Vigilance Is
     Needed to Protect Government Interests,” (GAO-05-340, June 22, 2005). The report
     examined steps for agencies to better ensure that savings cover the costs of energy
     contracts and prompted the Department of Energy to do more to facilitate oversight of
     energy contracts. Unrestricted reports can be accessed at http://www.gao.gov.



22                                                                        REPORT NO. IG-13-014
APPENDIX B




                                                                 ENERGY CONSERVATION
                                                                MEASURES AND ZONES AT
                                                                JOHNSON SPACE CENTER


Map of Johnson Space Center Zones 1 - 5

  Figure 5 is a site map of Johnson. The Center was divided into five Zones and energy
  conservation measures were installed in each Zone. Zone 1 covers 19 buildings in the
  southwest section of the Center, Zone 2 covers 3 buildings in the central section, Zone 3
  covers 16 buildings in the north section, Zone 4 covers buildings in sections 200, 300,
  400 and facilities in the Sonny Carter Training Facility and Ellington Field, and Zone 5
  covers 17 buildings in the southeast section. See Table 4 for a description of each
  measure and the applicable Zone.

                          Figure 5. Site Map of Johnson Space Center




         Source: Map obtained from Johnson Space Center with OIG presentation of Zones.



REPORT NO. IG-13-014                                                                          23
                                                                              APPENDIX B




                 Table 4. Energy Conservations Measures Installed
                          by Honeywell at Johnson Under
                                  NAS9-99075


                         Description                  Installed in Building

     Variable Speed Fan Drives on chilled Water          All Buildings in
     Pumps                                                 Zones 1 - 5

     Flush Valve Retrofit                                All Buildings in
                                                           Zones 1 - 5

     Variable Speed Fan Drives on Air Handling            All Buildings
     Units                                                except Zone 2

     Variable Speed Fan Drives on Cooling Towers           Zone 2 only

     Energy Management Control System and Direct       All Buildings except
     Digital Controls                                      24, 25, & 48

     Occupancy Sensors                                 All Buildings except
                                                           24, 25, & 48

     Lighting                                            All Building in
                                                          Zones 1 - 5

     Synchronous Belts                                 All Buildings except
                                                           24, 25, & 48

     Low-Flow Faucet Aerators                            All Buildings in
                                                           Zones 1 - 5

     Condenser Water Retrofit                              Zone 2 only

     Process Water Retrofit                                Zone 3 only

     Compressed Air Retrofit                               Zone 2 only

     Plantscape Energy Management Control System           Zone 2 only




24                                                                  REPORT NO. IG-13-014
APPENDIX C




                       MANAGEMENT COMMENTS




REPORT NO. IG-13-014                         25
              APPENDIX C




26   REPORT NO. IG-13-014
APPENDIX C




REPORT NO. IG-13-014   27
                                                                               APPENDIX D




                                                         REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Chief Financial Officer
     Associate Administrator, Mission Support Directorate
     Assistant Administrator, Office of Strategic Infrastructure
     Assistant Administrator, Office of Procurement
     Director, Environmental Management Division
     NASA Advisory Council’s Audit, Finance, and Analysis Committee
     Director, Ames Research Center
     Director, Glenn Research Center
     Director, Goddard Space Flight Center
     Director, Jet Propulsion Laboratory
     Director, Johnson Space Center
       Director, Johnson Office of Procurement
       Chief Financial Officer, Johnson Space Center
     Acting Director, NASA Management Office
     Director, Wallops Flight Facility

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Acquisition and Sourcing Management
     Department of Energy, Federal Energy Management Program,
         Golden Service Center, Acquisitions Contracting Officer

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations



28                                                                    REPORT NO. IG-13-014
APPENDIX D



     Subcommittee on Commerce, Justice, Science, and Related Agencies
  House Committee on Oversight and Government Reform
     Subcommittee on Government Operations
  House Committee on Science, Space, and Technology
     Subcommittee on Oversight
     Subcommittee on Space




REPORT NO. IG-13-014                                                    29
Major Contributors to the Report:
   Ridge Bowman, Director, Space Operations Directorate
   Loretta Atkinson, Project Manager
   Jim Griggs, Lead Auditor
   Gene Bauer, Auditor
   Barbara Moody, Auditor
   Doug Orton, Auditor
   Cedric Campbell, Legal Counsel
   Melissa Martinez, Graphics Support




REPORT NO. IG-13-014                                      31
                                                                                         APRIL 8, 2013
                                                                        REPORT No. IG-13-014




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY13/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
